     Department of Homeland Security

     ��������������������������



  Rural Electric Cooperative, Lindsay, Oklahoma, 

Generally Accounted for and Expended FEMA Public 

         Assistance Grant Funds Correctly 





OIG-14-30-D                           February 2014

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

                                           February 5, 2014

MEMORANDUM FOR:                        George A. Robinson
                                       Regional Administrator, Region VI
                                       Federal Emergency Management Agency


FROM:                                  John V. Kelly
                                       Assistant Inspector General
                                       Office of Emergency Management Oversight

SUBJECT:                               Rural Electric Cooperative, Lindsay, Oklahoma, Generally
                                       Accounted for and Expended FEMA Public Assistance Grant
                                       Funds Correctly
                                       FEMA Disaster Number 1883-DR-OK
                                       Audit Report Number OIG-14-30-D

We audited Public Assistance grant funds awarded to Rural Electric Cooperative
(Cooperative) in Lindsay, Oklahoma (Public Assistance Identification Number 000-
UGFU7-00). Our audit objective was to determine whether the Cooperative accounted
for and expended Federal Emergency Management Agency (FEMA) grant funds
according to Federal regulations and FEMA guidelines.

The Oklahoma Department of Emergency Management (State), a FEMA grantee,
awarded the Cooperative $3.76 million for damages resulting from severe winter storms
from January 28 through 30, 2010. The award provided 75 percent funding for two large
projects and one small project. 1 The audit covered the period January 28, 2010, through
March 28, 2011, the cutoff date of our audit, and included a review of two large projects
totaling $3.75 million (see Exhibit, Schedule of Projects Audited). As of our cutoff date,
the Cooperative had completed and FEMA had closed all projects.

We conducted this performance audit between March 2013 and September 2013,
pursuant to the Inspector General Act of 1978, as amended, and according to generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based upon our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based upon our audit objective. We conducted this audit by applying the statutes,
regulations, and FEMA policies and guidelines in effect at the time of the disaster.

1
    Federal regulations in effect at the time of the disaster set the large project threshold at $63,200.
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



We interviewed FEMA, State, and Cooperative officials; reviewed judgmentally selected
project costs (generally based on dollar value); and performed other procedures
considered necessary to accomplish our objective. We did not assess the adequacy of
the Cooperative’s internal controls applicable to grant activities because it was not
necessary to accomplish our audit objective. We did, however, gain an understanding of
the Cooperative’s method of accounting for disaster-related costs and its procurement
policies and procedures.


                                     BACKGROUND

The Cooperative, located in south central Oklahoma, is a non-profit organization that
provides electrical service to citizens in six counties. The Cooperative’s power
distribution system has 2,851 miles of overhead distribution lines and serves 10,704
active meters. During the incident period from January 28 through 30, 2010, a severe
winter storm with freezing rain and snow swept across southwestern Oklahoma. Ice
buildup on the distribution wires along with high winds caused extensive damage to the
Cooperative’s electric distribution system in five counties.


                                   RESULTS OF AUDIT

The Cooperative generally accounted for and expended FEMA funds according to
Federal regulations and FEMA guidelines. However, the Cooperative did not always
follow Federal regulations in awarding contracts for disaster work because it was not
aware of all procurement standards that apply to Federal grants. Specifically, the
Cooperative did not take the required steps to promote participation by small and
minority- and women-owned businesses and did not include all required provisions in its
contracts. We are not questioning the costs associated with these contracts because the
Cooperative (1) incurred most of the contract costs under exigent circumstances to
restore electrical power to its customers, (2) awarded contracts for permanent work
after soliciting competitive bids, (3) awarded the majority of its disaster work to women-
or minority-owned businesses, and (4) used standard Rural Utilities Service contracts




www.oig.dhs.gov                             2                                 OIG-14-30-D
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


that it obtained from a Federal agency.2 The standard contracts included some, but not
all federally-required provisions.

Grantees are responsible for ensuring that subgrantees are aware of and follow Federal
regulations. Therefore, FEMA should direct the Department of Oklahoma Emergency
Management to develop policies and procedures for future disasters to ensure that
subgrantees are aware of and follow all Federal procurement standards for federally-
funded disaster work.

Procurement for Disaster Work

The Cooperative used its own labor, mutual aid agreements, and emergency contracts
during the exigent period until it restored full power to its customers on February 17,
2010. Subsequently, the Cooperative used its own employees and competitively-
awarded contracts to complete permanent work. In all, the Cooperative awarded
contracts totaling $1,060,000 for disaster work—$851,640 for emergency work to
restore power and $208,360 for permanent work. However, the Cooperative did not
take the required steps to promote participation by small and minority- and women-
owned businesses and did not include all required provisions in its contracts.

StepsfTofEnsurefParticipationfoffSmallfandfMinority-fandfWomen-ownedfBusinessesf

Federal regulation 2 CFR 215.44(b) requires subgrantees to take specific steps to ensure
the use of small businesses, minority-owned firms, and women’s business enterprises
whenever possible. These steps include using the services and assistance of the Small
Business Administration and the Minority Business Development Agency of the
Department of Commerce to solicit and use these firms.

The managing engineer of the Cooperative said that they did not take these specific
steps because they were not aware of the requirement. However, the Cooperative did
award the majority of its disaster contract work to women- and minority-owned
businesses. Of the $1,060,000 the Cooperative claimed for contract costs, $750,180, or

2
  The Rural Utilities Service (RUS) is an agency within the U.S. Department of Agriculture charged with
providing public utilities (electricity, telephone, water, and sewer) to rural areas in the United States via
public-private partnerships. RUS Electric Programs provide leadership and capital to upgrade, expand,
maintain, and replace America's vast rural electric infrastructure. Under the authority of the Rural
Electrification Act of 1936, the RUS Electric Programs make direct loans and loan guarantees to electric
utilities to serve customers in rural areas.

.



www.oig.dhs.gov                                        3                                         OIG-14-30-D
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


71 percent, was for contract work it awarded to women- and minority-owned
businesses.

ContractfProvisionsf

Federal regulations require subgrantees to include specific provisions in their contracts
(2 CFR 215.48 and Appendix A). These contract provisions document the rights and
responsibilities of the parties and minimize the risk of contract misinterpretations and
disputes. For example, the termination provision (2 CFR 215.48(b)) requires the
subgrantee to include a provision in all contracts providing the right to end an
agreement with a contractor; and the access to records provision (2 CFR 215.48(d))
requires a provision granting the subgrantee, the Federal awarding agency and the
Comptroller General of the United States, or any of their duly authorized
representatives, the right to examine the contractor’s records.

Cooperative officials said that they did not include all of the required provisions in their
contracts because they were not aware of the Federal requirement. The Cooperative
used standard Rural Utilities Service (RUS) contracts and assumed the contracts met
Federal standards because the Cooperative obtained them from a Federal agency. The
RUS contracts did include some provisions similar to those that 2 CFR 215.48 requires to
help protect the interests of subgrantees and the Federal Government. For example, the
standard RUS contract includes provisions for compliance with the Federal Water
Pollution Control Act and aspects of equal employment opportunity and remedies for
instances when contractors violate or breach contracts. However, it does not include
several other important provisions that 2 CFR 215.48 requires, such as those for access
to books and records, work hours and safety standards, and prohibition from hiring
contractors debarred and suspended from work on Federal Government contracts.

Grant Management

Cooperative officials stated that they did not always follow Federal procurement
regulations because they were not aware of them. According to 44 CFR 13.37(a)(2), the
grantee is required to ensure that subgrantees are aware of requirements that Federal
regulations impose on them; and 44 CFR 13.40(a) requires the grantee to manage the
day-to-day operations of subgrant activity and monitor subgrant activity to ensure
compliance with applicable Federal requirements. Therefore, FEMA should direct the
Oklahoma Department of Emergency Management to develop policies and procedures
for future disasters to ensure that subgrantees are aware of and follow all Federal
procurement standards for federally-funded disaster work.




www.oig.dhs.gov                              4                                  OIG-14-30-D
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


                                     RECOMMENDATION

We recommend that the Regional Administrator, FEMA Region VI, direct the Oklahoma
Department of Emergency Management to develop policies and procedures for future
disasters to ensure that subgrantees are aware of and follow all Federal procurement
standards for federally-funded disaster work.


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Cooperative officials during our audit and
included their comments in this report, as appropriate. We also provided a draft report
in advance to FEMA, State, and Cooperative officials and discussed it at exit conferences
held with FEMA on September 30, and October 29, 2013, with the State on October 29,
2013, and with the Cooperative on October 30, 2013.

Following the exit conference, FEMA Region VI directed the Oklahoma Department of
Emergency Management to develop policies and procedures for future disasters to
ensure that subgrantees are aware of and follow all Federal procurement standards for
federally-funded disaster work. Therefore, we consider this report and its
recommendation closed upon issuance and requires no further actions from FEMA.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Christopher Dodd, Acting Director; and Douglas
Denson, Auditor-in-Charge.

Please call me with any questions at (202) 254-4100, or your staff may call
Christopher Dodd, Acting Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                             5                                 OIG-14-30-D
                    OFFICE OF INSPECTOR GENERAL
                       Department of Homeland Security


                                                                Exhibit

                         Schedule of Projects Audited


                    Project     Project     Gross Award
                    Number     Category       Amount
                    PW 236         B        $ 785,419.00
                    PW 234         F         2,964,636.00
                  Totals                    $3,750,055.00




www.oig.dhs.gov                     6                       OIG-14-30-D
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


                                                                            Appendix
                                 Report Distribution List

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Chief Privacy Officer

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region VI
Audit Liaison, FEMA (Job Code G-13-028)

Recovery Accountability and Transparency Board
Director, Investigations, Recovery Accountability and Transparency Board

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Grantee
Public Assistance Coordinator, Oklahoma Department of Emergency Management

State
State Auditor, State of Oklahoma

Subgrantee
Chief Executive Officer, Rural Electric Cooperative

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform


www.oig.dhs.gov                             7                              OIG-14-30-D
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
